               OFFICE OF THE SPECIAL INSPECTOR GENERAL

                    FOR AFGHANISTAN RECONSTRUCTION


     INSPECTION OF FARUKH SHAH SCHOOL CONSTRUCTION
               PROJECT IN KAPISA PROVINCE:
           PROJECT COMPLETION APPROVED BEFORE ALL
                        CONTRACT REQUIREMENTS MET




                              October 26, 2009




SIGAR Inspection 10-1
              SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                                    400 Army Navy Drive
                                                   Arlington, Virginia 22202
      October 26, 2009

      MEMORANDUM FOR: Commander, United States Forces-Afghanistan

                                   Commander, Combined Joint Task Force-82

      SUBJECT: SIGAR Inspection Report 10-1: Inspection of Farukh Shah School Construction
               Project, Kapisa Province: Project Completion Approved Before All Contract
               Requirements Met


      This report provides observations, findings, and recommendations of an inspection of a
      school construction project funded by the Commander’s Emergency Response Program
      and managed by the Kapisa Provincial Reconstruction Team (PRT). This inspection
      focused on the management, design, and construction work for the Farukh Shah School
      located in the Nijrab District of Kapisa Province. This project cost the U.S. government
      approximately $150,000 dollars. It is one of 12 school construction projects initiated by
      the Kapisa PRT during the past 18 months.

      The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
      conducted the inspection between June and August 2009. A summary of our report is on
      page ii. When preparing the final report, we considered written comments submitted by
      US Forces-Afghanistan and incorporated information provided from these comments, as
      appropriate, into the report. These comments are reprinted in Appendix C of this report.

      The inspection was conducted under the authority of Public Law 110-181 and the Inspector
      General Act of 1978, as amended; and performed in accordance with the Quality Standards
      for Inspections issued by the Council of the Inspectors General on Integrity and Efficiency.

      Very respectfully,




      Guy Sands-Pingot
      Assistant Inspector General for Inspections
      Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10-1: Farukh Shah School Construction Project                                       Page i
                                                                      Summary of Report: SIGAR Inspection 10-1        October 26, 2009


                      SIGAR
                                                      Special Inspector General for Afghanistan Reconstruction
                                                                      Inspection of Farukh Shah School Construction Project
                                                                      in Kapisa Province: Project Completion Approved
  Special Inspector General for Afghanistan Reconstruction            Before All Contract Requirements Met

Why SIGAR Did This Inspection –
SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine whether U.S. funds are used
appropriately, contract terms are met, adequate oversight is provided, and the project can be maintained upon turnover to Afghan
authorities.

What SIGAR Inspected -
SIGAR inspected the Farukh Shah School project in Kapisa Province between June and August 2009 and conducted onsite inspections of
the school construction work on June 21 and August 12, 2009. The school was built at a total cost of approximately $150,000 using
Commander’s Emergency Response Program (CERP) funds. The project was developed by the Kapisa Provincial Reconstruction Team
(PRT) and approved for implementation in January 2007 with an initial performance period of 270 days.

What SIGAR Found –
• Project Closed Out With Work Remaining: Although PRT officials closed out this project in August 2009, almost 2 years behind
  schedule, a number of construction requirements remained unfinished. PRT officials explained that they approved the project for
  close-out due to a need to complete CERP projects approved in fiscal year 2008 before the end of fiscal year 2009. They also
  explained that they were under pressure from local Afghan authorities, who stated that they needed the school in its “as-is”
  condition because students and teachers were using an inadequate outdoor area for instruction. SIGAR believes closing out the
  project was premature since significant work remained to be performed to complete the school building, latrine, guard house,
  power plant, hand pump, and site clean-up.

• Design Deficiencies: SIGAR also found two project flaws that could affect the long-term viability of the school infrastructure.
  Improper grading, including a lack of terracing to mitigate the effects of soil erosion, and the absence of a retaining wall increases
  the risk that landslides will eventually damage structures on the school compound. SIGAR believes both these items should have
  been anticipated and included in the project’s scope of work.

What SIGAR Recommends -
SIGAR recommends that the Commander of the Kapisa PRT:

     •    Issue a follow-up contract to address the construction deficiencies noted in this report.

     •    Place greater emphasis on developing detailed scopes of work which anticipate and address critical design issues that are
          particular to each construction project rather than relying solely on standard design plans.

For more information, contact SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil




                                                                                                                       Views of the rear
                                                                                                                       portion of the
                                                                                                                       perimeter wall which
                                                                                                                       is inadequate to
                                                                                                                       protect the Farukh
                                                                                                                       Shah School
                                                                                                                       compound from rock
                                                                                                                       slides on left, and
                                                                                                                       improper grading on
                                                                                                                       right that places the
                                                                                                                       school compound at
                                                                                                                       risk. (Photos
                                                                                                                       provided by SIGAR).


     SIGAR Inspection 10 – 1 Farukh Shah School Construction Project                                                          Pageiiiii
                                                                                                                             Page
                                          Special Inspector General for Afghanistan Reconstruction


 Table of Contents
   Inspection Objectives -                                                                               1

   Project Background -                                                                                  1
     Contract Costs, Requirements, and Timing                                                            2

   SIGAR Inspection Findings -                                                                           2
       Incomplete Work at Time of Project Close-out                                                      3
          School Building Construction                                                                   3
          Latrine Construction                                                                           3
          Guard House Construction                                                                       4
          Power Plant Building Construction and Installation of a 10 kw Generator                        4
          Hand Pump Water Well Installation                                                              5
          Site Cleanup                                                                                   6
       Project Lacks Proper Grading and a Retaining Wall                                                 6
   Conclusions -                                                                                         8

   Recommendations -                                                                                     9

   Agency Comments and Response -                                                                        9

   Appendix A – Scope and Methodology                                                                   10

   Appendix B – Abbreviations                                                                           11

   Appendix C – Agency Comments                                                                         12

   List of Figures and Photographs:

     Figure 1: Location of the Farukh Shah Secondary School in Kapisa Province                            1
     Site Photo 1: View of school house taken in April 2009                                               2
     Site Photo 2: View of latrine                                                                        4
     Site Photo 3: View of generator house                                                                5
     Site Photo 4: View of inoperable hand water pump and well                                            5
     Site Photo 5: View of discarded old school desks outside of the main school building                 6
     Site Photo 6: View of grader attempting to level the ground in front of the school                   7
     Site Photo 7: View of school grounds less than one month after grading was done                      7
     Site Photo 8: View of 2 meter high stone masonry perimeter                                           8
     Site Photo 9: View of the top of the perimeter which is now level to the ground                      8




SIGAR Inspection 10 – 1 Farukh Shah School Construction Project                                      Page iii
                                              Special Inspector General for Afghanistan Reconstruction



      Inspection Objectives
      SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine whether
      U.S. funds are used appropriately, contract terms are met, adequate oversight is provided, and the
      project can be maintained upon turnover to Afghan authorities.

      SIGAR inspected the Farukh Shah School construction project managed by the Kapisa Provincial
      Reconstruction Team (PRT), which is a component of United States Forces-Afghanistan (USFOR-A),
      between June and August 2009 and conducted onsite inspections of the school construction work on
      June 21 and August 12, 2009.

      Details on our inspection scope and methodology are provided in Appendix A.

      Project Background
      In support of Afghanistan’s educational goals, the United States has sponsored the construction of
      hundreds of schools and educational facilities throughout Afghanistan since 2002. As part of this effort,
      the Farukh Shah School reconstruction project was proposed by the Kapisa PRT in late 2006 and
      approved for implementation in January 2007. Located in Nijrab District, Kapisa Province, Afghanistan
      (see Figure 1), the project was designed to serve an isolated community with a growing population of
      children that currently have no adequate school facility.

      The site selected for the construction of the school and its compound was previously occupied by a
      small and dilapidated structure that served as a school house for local children. This structure was
      inadequate for the large number of school age children who needed to attend classes.




              Figure 1: The Farukh Shah School is located in the mountainous Nijrab District of Kapisa Province
              shown by the red star. (Map provided by the Afghanistan Information Management System)


SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                              Page 1
                                              Special Inspector General for Afghanistan Reconstruction



      Contract Costs, Requirements, and Timing
      The Kapisa PRT initially awarded a contract to a local Nijrab construction company as a firm fixed price
      contract for approximately $150,000. The notice-to-proceed date was established as February 10, 2007
      with a construction time period of 270 days. 1 Specific work tasks included site preparation, construction
      of a school building, a latrine, a guard house, generator housing, a hand operated water pump and well,
      and a stone masonry perimeter wall. Most of the work completed by the original contractor however,
      was deemed substandard by the then PRT Quality Assurance Representative as reflected in
      documentation provided to SIGAR. As this initial contractor was unable to accomplish required
      construction work to standard, a second contractor was awarded the project in February 2009. This
      contractor also proved to be unable to meet the standards required to complete the project within
      target cost levels and was terminated in May 2009. Finally, a third contractor was brought in to
      complete the remaining 20 percent of the construction work between June and July 2009. As a result of
      these performance issues and the inability of construction work to proceed during winter months, SIGAR
      found that the project’s completion had been delayed by over two years. At the time of SIGAR’s on-site
      inspections, the school building had been largely completed (see Site Photo 1), however, work
      continued on the perimeter wall and several peripheral structures.




                                                                                                Site Photo 1: View of school house
                                                                                                taken in April 2009. (Photo
                                                                                                provided by Kapisa PRT)


      SIGAR Inspection Findings
      SIGAR found that PRT officials issued a Project Closure Report on August 8, 2009, four days before SIGAR
      conducted its inspection. SIGAR believes this action was premature since significant work remained to
      be performed including work at the school building, latrine, guard house, generator building, walkways,
      water well and site clean-up. PRT officials explained that they approved the project for close-out due to
      higher command guidance that directed CERP projects approved in fiscal year 2008 be completed before

      1
       The contract was awarded by the Provincial Project Review Committee which consists of both PRT and local
      Afghan authorities which meets regularly to discuss and jointly decide on project proposals that will be supported
      by the PRT.




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                            Page 2
                                              Special Inspector General for Afghanistan Reconstruction



      the end of fiscal year 2009. PRT officials also explained that they were under pressure from the
      provincial Director of Education who stated he needed the school in its “as-is” condition because
      students and teachers were using an inadequate outdoor area for instruction.

      SIGAR also found two significant design deficiencies involving the earth removal work performed on the
      construction site. The first deficiency involves inadequate site preparation and grading. This lack of
      adequate grading requires terracing to mitigate the effects of erosion as a result of the soil removal
      which cut into the side of a mountain and left ground layers exposed. The second design deficiency is
      the lack of a retaining wall. Because of the extensive leveling required for the site that cut into the side
      of a mountain, a retaining wall is needed instead of the simple stone masonry wall that serves as a
      security perimeter which lacks the structural strength to hold back mud and landslides.

      Incomplete Work at Time of Project Close-out

      School Building Construction

      In June 2009, SIGAR found that the school’s construction did not meet accepted building standards as
      specified in the statement of work. For example, SIGAR found exposed electrical wiring, improper
      switch installations, wall joints filled with styrofoam sections rather than the required expansion joint
      material; improperly hung doors which were subject to jamming; improperly installed galvanized steel
      roofing and ventilation cantilevers, and the absence of required ceramic tiling on the school’s concrete
      floors.

      During SIGAR’s follow-up on-site inspection in August, we found that some of the deficiencies noted in
      the previous onsite visit had been corrected. Some of the corrective actions were apparent such as the
      replacement of inadequately installed steel mesh fencing with appropriately fitted railings thus
      mitigating the risk of school children falling from a height of approximately 10 feet from the sides of the
      south entrance steps of the school building. However, SIGAR could not verify if all the corrective
      actions met required building standards. For example, although the exposed electrical wiring and
      switches in the main schoolhouse were replaced and appeared to be properly installed, because the
      generator was not working, SIGAR could not confirm that the electrical system in the school was in fact
      installed according to standards. SIGAR was also told by the PRT Quality Assurance Representative that
      the styrofoam that had been installed in the building joints had been replaced with appropriate
      expansion joint material. SIGAR noted other building inadequacies that included cracks along the sides
      of the soffit material below the roof overhang and a lack of mesh screening for the 4 ventilation
      openings in the roof. Without some sort of screening, birds and other pests will eventually enter in the
      space under the roof. SIGAR believes these and other deficiencies should have been addressed and
      corrected before the contract was closed out.

      Latrine Construction

      During our June inspection visit, SIGAR observed portions of the latrine concrete walls that were
      severely cracked and a defective roof that allowed wind and moisture to enter the structure that had to
      be removed. SIGAR also observed refuse removal openings in the rear base of the latrine structure that



SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                         Page 3
                                              Special Inspector General for Afghanistan Reconstruction



      were too small to adequately remove the human waste that will accumulate in these locations. During
      SIGAR’s follow-up site visit in August, we found that although some improvements were made to the
      latrine building, including the installation of the new roof, other deficiencies, such as the inadequately
      sized openings for refuse removal, remained.




                                                                                     Site photo 2: View of the latrine
                                                                                     containing inadequate opening sizes
                                                                                     for refuse removal.
                                                                                     (Photo provided by SIGAR)



      Guard House and Main Entrance Construction

      Although the guard house was being used as intended, SIGAR noted that its construction was
      rudimentary. For instance, we noticed that no electric outlet or switch was installed in the building as
      specified in the statement of work during our inspection. Additionally, SIGAR observed that no outside
      security lights had been installed either at the guard house or the surrounding school grounds. During
      the inspection of this part of the security perimeter work, SIGAR found that the main entrance gates and
      guard entrance door were adequately constructed and in accordance with the statement of work.

      Power Plant Building Construction and Installation of a 10 Kilowatt Generator

      SIGAR found that the power plant building was adequately built following the replacement of the
      original roof that had to be removed due to defective construction methods we identified in June 2009.
      Additionally, during the August onsite visit the SIGAR inspection team had the opportunity to examine
      the 10 kilowatt generator. SIGAR found that the generator had not been permanently installed. No
      venting pipes or vent openings were installed, as required by the statement of work, to properly allow
      vent fumes produced during generator operations to escape the building. Additionally, the building
      lacked a concrete walkway and no fuel tank was installed at the time of SIGAR’s June inspection. During
      the August onsite visit SIGAR noted that although some improvements were made, such as a newly
      installed roof, several items required by the statement of work had yet to be accomplished. These items
      include venting pipes for generator exhaust and concrete walkways leading to the school. During




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                       Page 4
                                              Special Inspector General for Afghanistan Reconstruction



      SIGAR’s second site visit, we also learned that no individual had been designated or trained to serve as
      the generator operator and electrician to handle power issues for the school.




                                                                                 Site Photo 3: View of generator
                                                                                 house which lacks proper exhaust
                                                                                 venting as required in the statement
                                                                                 of work. (Photo provided by SIGAR)


      Hand Pump Water Well Installation

      During both the June and August onsite visits, SIGAR inspectors found the hand operated water pump to
      be inoperable. SIGAR could not determine whether the well was placed in a location that no longer had
      the capacity to bring water to the surface, or whether the internal mechanisms of the pump were at
      fault.




                                                                                 Site Photo 4: During the onsite visit to the
                                                                                 school, SIGAR inspectors found that the water
                                                                                 pump installed 3 months earlier was not
                                                                                 operable. (Photo provided by SIGAR)




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                         Page 5
                                              Special Inspector General for Afghanistan Reconstruction



      Site Cleanup

      SIGAR noted that the school compound had not been adequately cleared of debris and rubbish left over
      from construction activities. Additionally, old student desks that were apparently not needed by the
      school administration were placed in two large piles on either end of the school. It is unclear when or if
      these materials will be removed.




                                                                                                   Site photo 5: View of
                                                                                                   discarded old school desks
                                                                                                   outside of the main school
                                                                                                   building. (Photo provided by
                                                                                                   SIGAR).



      Project Lacks Proper Grading and a Retaining Wall

      SIGAR found two serious project design flaws. First, instead of properly grading the site and compacting
      the construction site’s soil, the excavated material was placed in the lower portion of the school
      grounds. This area is subject to severe erosion which creates a potential threat to the integrity of the
      various buildings on the school grounds (see Site Photos 6 and 7). 2 SIGAR believes that the absence of
      adequate earthwork provisions in the contract’s scope of work led to this condition. The only practical
      solution to this serious design problem is to conduct another topographic survey and develop an
      effective grading plan that will prevent erosion from undermining the foundations of the various
      structures on the site. SIGAR noted in discussions with PRT and school officials that there is interest in
      developing a plan that can best utilize the newly leveled land for other purposes such as a soccer pitch
      and play ground.



      2
       The site the school compound was built on was far from ideal. Built on land owned by the Afghan Education
      Department, the project site is located on a 2.5 acre parcel of steeply sloping, rocky land.




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                              Page 6
                                              Special Inspector General for Afghanistan Reconstruction




                                                                                                         Site Photo 6: View of grader
                                                                                                         attempting to level the
                                                                                                         ground in front of the school
                                                                                                         house in mid- July. This
                                                                                                         grading improved, but did not
                                                                                                         solve, the ground erosion
                                                                                                         problem because there was
                                                                                                         no follow-up compaction of
                                                                                                         the soil. (Photo provided by
                                                                                                         Kapisa PRT)




                                                                                                         Site Photo 7: View of school
                                                                                                         grounds less than one month
                                                                                                         after grading work was
                                                                                                         completed showing signs of
                                                                                                         site erosion. (Photo
                                                                                                         provided by Kapisa PRT)




      Second, SIGAR also found that although the perimeter wall appeared to be solidly built and in
      accordance with the statement of work, it mostly serves as a retaining wall due to the nature of the
      school grounds topography. SIGAR notes this is potentially dangerous since the perimeter wall was not
      built to retaining wall standards which require a much larger and stronger foundation base. Given the
      nature of the area’s topography with evidence of recent rockslides and erosion, the possibility exists
      that areas of the perimeter wall may suffer washout and collapse unless it is further reinforced. (See
      Site Photos 7 and 8).




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                              Page 7
                                              Special Inspector General for Afghanistan Reconstruction




                                                                            Site Photo 8: View of 2 meter high stone masonry
                                                                            perimeter wall at the rear of the school compound.
                                                                            The significant level of erosion can be seen. The
                                                                            perimeter wall parallel to the slope can be seen on
                                                                            the right. (Photo provided by SIGAR)




                                                                             Site Photo 9: The top of the 2 meter perimeter wall
                                                                             can be seen (indicated by red arrow). During the
                                                                             site grading, soil was placed against the perimeter
                                                                             wall, bringing the grade elevation up to the top of
                                                                             the wall in some areas. (Photo provided by SIGAR)

      Conclusions
      SIGAR found that the Kapisa PRT issued a Project Closure Report in August 2009, despite the fact that
      several construction deficiencies in the PRT’s final quality assurance inspection needed to be addressed
      for safety, quality, and sustainability reasons.

      Major unfinished tasks that SIGAR noted included: (1) grading of the school grounds; (2) installing an
      external fuel tank and exhaust pipe outlet for the generator at the power plant building; (3) repairing
      and servicing the hand operated water pump; (4) constructing concrete walkways throughout the school
      grounds; (5) installing mesh screens or vents in the roof ventilation cantilever openings on the main
      school building to prevent entry of birds or other pests into the roof area; (6) cleaning up and removing
      site debris; and (7) designating and training an individual to serve as the generator operator and
      electrician to handle electrical power supply issues for the school.




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                         Page 8
                                              Special Inspector General for Afghanistan Reconstruction



      Finally, SIGAR found two serious design flaws which should have been anticipated and addressed in the
      scope of work: an absence of terracing needed to mitigate the effects of soil erosion as a result of site
      preparation which cut into the side of a mountain, and a retaining wall rather than the simple stone
      masonry security wall that has been constructed.

      Recommendations
      SIGAR recommends that the Commander of the Kapisa PRT:

            •    Issue a follow-up contract to address the construction deficiencies noted in this report.

           •    Place greater emphasis on developing detailed scopes of work which anticipate and address
                critical design issues that are particular to each construction project rather than relying solely on
                standard design plans.


      Agency Comments and Response
      USFOR-A and the Kapisa PRT provided written comments on the draft of this report which are included
      in Appendix C. In their comments, USFOR-A and the Kapisa PRT generally concurred with the
      information and recommendations presented in the report. USFOR-A stated that although it believes
      the procedures for issuing a project closure report are sound, they are in need of enforcement. SIGAR
      agrees with this assessment and revised its recommendations because USFOR-A is drafting an order to
      address a number of the quality assurance issues SIGAR noted in this report. SIGAR believes that when
      issued, this guidance will provide better visibility of project status for managers and verify proper
      project closure. SIGAR acknowledges the need to be responsive with the desires of the local authorities
      but maintains that work should have continued in order to ensure the requirements specified in the
      statement of work were fully met.

      While USFOR-A provided no comment on SIGAR’s recommendation that a follow-up contract to address
      deficiencies noted in this report, the Kapisa PRT concurred with the recommendation. USFOR-A
      concurred that greater emphasis on developing detailed scopes of work which anticipate and address
      critical design issues should be a part of project development. In its response, USFOR-A stated that
      every “effort is made to provide a quality project to the Afghans. However, the reality of the situation is
      that CERP projects are prepared by soldiers not engineering firms.” This comment highlights the need
      for proper training and effective preparation in order to set the conditions for successful project
      execution.

      In its comments which concurred with the information in the draft report, the Kapisa PRT noted that
      tailoring standard school designs to the site location is crucial in identifying potential problems that
      could hinder the progress of projects. The PRT commented that “it is imperative that the PRT identifies
      problems prior to project execution, and these issues are addressed in a timely manner.” SIGAR agrees.




      (This report was conducted under the SIGAR Inspection Project Code SIGAR-002b-I)




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                            Page 9
                                              Special Inspector General for Afghanistan Reconstruction




      Appendix A-Scope and Methodology
      SIGAR performed this project inspection from June to August 2009 in accordance with Quality Standards
      for Inspections issued by the Council of the Inspectors General on Integrity and Efficiency. The
      inspection team included the Assistant Inspector General for Inspections and an engineer inspector.

      In performing this project inspection, SIGAR:

           •    Reviewed contract documentation to include the following:

                -     Contract KAP-NIJ-6348-3528 issued by the Bagram Joint Contracting Center on 10 February
                      2007; relevant purchase orders, invoices, and vouchers dealing with the project; the
                      Statement of Work with all required specifications and accompanying documentation.

                -     All documentation prepared and presented by the contractor dealing with the construction
                      of the road project.

                -     The project Survey and Assessment Plan including design drawings and specifications, PRT
                      quality assurance reports and records, construction progress photographs and other
                      documentation brought to the inspection team’s attention.

           •    Interviewed the previous and current PRT Commanders and other knowledgeable members of
                the PRT staff; the contractor and chief work foreman who were present during the on-site visits
                to the school construction site made in both June and August 2009; and the Kapisa Provincial
                Director of Education.

           •    Conducted an onsite inspection of the school construction project during visits on June 20 and
                August 12, 2009. Personnel from the Kapisa PRT (including the previous and current PRT
                Engineer and members of their staff) accompanied SIGAR inspectors during these inspection
                visits.




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                      Page 10
                                              Special Inspector General for Afghanistan Reconstruction




      Appendix B – Abbreviations

      CERP                           Commander’s Emergency Response Program
      PRT                            Provincial Reconstruction Team
      SIGAR                          Special Inspector General for Afghanistan Reconstruction
      USFOR-A                        United States Forces-Afghanistan




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                     Page 11
                                              Special Inspector General for Afghanistan Reconstruction




      Appendix C – Agency Comments




 [Note: When the draft of this report was sent for agency comment, it was tentatively designated as SIGAR Inspection 09-03.
 Since receiving agency comments, this report has been re-designated SIGAR Inspection 10-1 as it is being issued in FY 2010.]




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                              Page 12
                                              Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                     Page 13
                                              Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                     Page 14
                                              Special Inspector General for Afghanistan Reconstruction




      SIGAR Mission and Contact Information
      SIGAR Mission:                 The mission of the Special Inspector General for Afghanistan Reconstruction is
                                     to enhance oversight of programs for the reconstruction of Afghanistan by
                                     conducting independent and objective audits, inspections, and investigations on
                                     the use of taxpayer dollars and related funds. SIGAR works to provide accurate
                                     and balanced information, evaluations, analysis, and recommendations to help
                                     the U.S. Congress, U.S. agencies, and other decision-makers to make informed
                                     oversight, policy, and funding decisions to:

                                     •    Improve effectiveness of the overall reconstruction strategy and its
                                          component programs;
                                     •    Improve management and accountability over funds administered by U.S.
                                          and Afghan agencies and their contractors;
                                     •    Improve contracting and contract management processes;
                                     •    Prevent fraud, waste, and abuse; and
                                     •    Advance U.S. interests in reconstructing Afghanistan.

       Obtaining Copies of SIGAR                             To obtain copies of SIGAR documents at no cost, go to
       Reports and Testimonies:                              SIGAR’s web-site (www.sigar.mil). SIGAR posts all released
                                                             reports, testimonies, and correspondence on its web-site.

       To Report Fraud, Waste, and                           To help prevent fraud, waste, and abuse by reporting
       Abuse in Afghanistan                                  allegations of fraud, waste, abuse, mismanagement, and
       Reconstruction Programs:                              reprisal contact SIGAR’s Hotline:

                                                                •   Web: www.sigar.mil/fraud
                                                                •   Email: hotline@sigar.mil
                                                                •   Phone DSN Afghanistan: 318-237-2575
                                                                •   Phone International: +1-866-329-8893
                                                                •   Phone DSN International: 312-664-0378
                                                                •   U.S. Fax: +1-703-604-0983

        Public Affairs:                                      Public Affairs Officer
                                                               • Phone: 703-602-8742
                                                               • Email: PublicAffairs@sigar.mil
                                                               • Mail: SIGAR Public Affairs
                                                                        400 Army Navy Drive
                                                                        Arlington, VA 22202




SIGAR Inspection 10 – 1 Farukh Shah Secondary School                                                                Page 15
